                                     Office of Inspector General
                                     U.S. Small Business Administration



                                                                                                 February 2012 Update


  Business Loans
                                                                      Texas Loan Broker Sentenced for Her Role in Bank
  Texas Man Sentenced on Arson Charges                                Fraud Conspiracy
  On February 8, 2012, a Texas man was sentenced to 60                On February 24, 2012, a Texas loan broker was
  months prison, 36 months supervised release, and                    sentenced to 36 months in prison, 36 months supervised
  ordered to pay approximately $169,517 in restitution. He            release, and ordered to pay restitution of approximately
  had previously pled guilty to one count of conspiracy to            $8,581,970 for her role in a conspiracy to commit bank
  commit arson. On August 4, 2011, the subject was                    fraud. The woman worked directly with 200 borrowers
  indicted on multiple charges relating to arson, and for             by instructing them on how to prepare their loan
  making a material false statement on an SBA loan                    paperwork and by obtaining from them the necessary
  application. The investigation disclosed that the man               financial records. On 45 of these loan packages, she
  failed to disclose that he had 22 previous arrests before           represented to various financial institutions that the
  receiving an SBA-guaranteed loan for $1,724,800 for the             borrowers had made their required cash injections when
  construction of a restaurant and a fuel station. This is a          they had not. She also instructed the borrowers to write
  joint investigation with the Bureau of Alcohol, Tobacco,            checks to her company in the amounts of their required
  Firearms, and Explosives.                                           equity injections. She then photocopied and returned the
                                                                      checks to the borrowers and presented the copies at the
  Arizona Man Indicted on Bank Fraud, Wire Fraud, and                 closings as having been paid. Both she and the
  False Loan and Credit Applications                                  borrowers knew the checks would not be cashed, and in
  On February 21, 2012, an Arizona man was indicted on                most cases, the borrowers did not have the funds in their
  three counts of bank fraud, one count of wire fraud, and            accounts. For each loan closed, the broker would receive
  three counts of false loan and credit applications. The             one to three percent of the loan value. To date,
  indictment charges that the man falsely obtained two                approximately $8 million has been charged off by the
  mortgage loans and an SBA loan by using his father’s                financial institutions and the SBA, and an additional
  identity. Allegedly, in order to get the loans approved,            $6.762 million is in liquidation. This is a joint
  the subject falsely represented that his father owned               investigation with the FBI.
  various properties and businesses, earned an annual
  salary of $110,000, and had large amounts of cash on                Maryland Man Pleads Guilty to Bank Fraud and
  hand. Further, he allegedly submitted altered bank                  Conspiracy to Commit Bank Fraud
  statements and false rental agreements in conjunction               On February 28, 2012, a Maryland man pled guilty to a
  with the loan applications. The total loss relating to the          three-count indictment charging two counts of bank fraud
  SBA loan is approximately $2,402,099. This is a joint               and one count of conspiracy to commit bank fraud.
  investigation with the Federal Bureau of Investigation.             Pursuant to the plea agreement, the man also agreed to
                                                                      forfeit $1,300,000. The investigation revealed that the
  Kentucky Man Pleads Guilty to Identity Theft                        subject encouraged prospective borrowers to use the
  On February 22, 2012, a Kentucky man pled guilty to                 services of another firm to apply for SBA business loans.
  one count of bank fraud, one count of presenting a forged           The man and others submitted SBA loan applications and
  security to a lending official, one count of aggravated             supporting documentation to loan originators and
  identity theft, one count of wire fraud, and one count of           underwriters on behalf of their clients.
  credit card fraud. The investigation revealed that the              The indictment charged that the packages contained
  man used the identity of a federal air marshal to obtain an         fraudulent personal financial statements and/or monthly
  SBA loan and multiple credit cards. In addition, the                bank statements that overstated the net worth and equity
  investigation revealed that he deposited a counterfeit              injection amounts of the borrowers to falsely enhance
  check into a federally insured financial institution. This is       their creditworthiness. This is a joint investigation with
  joint investigation with the United States Secret Service.          the FBI.


Monthly Update on Activities of the SBA Office of Inspector General
Disaster Loans                                                        the planned steering of a $780 million government
                                                                      contract. The investigation revealed that the former
Texas Woman Charged with Tampering with a                             program manager, a public official, received and
Government Document and Theft of Disaster Benefits                    accepted things of value from the technology firm in
On February 8, 2012, a Texas woman was charged in                     return for funding and approving contracts. The
state court in Harris County, Texas, with three counts of             technology firm was an SBA certified 8(a) program
tampering with a government document and one count of                 participant. This is a joint investigation with the FBI, the
theft of disaster benefits. The charges allege that she               Internal Revenue Service, Criminal Investigations (IRS-
made false claims to the SBA, the Federal Emergency                   CI); the U.S. Army Criminal Investigation Division
Management Agency (FEMA), and the Department of                       (USACID); the Defense Criminal Investigative Service
Housing and Urban Development (HUD) to obtain                         (DCIS); the U.S. Department of Labor OIG; the General
approximately $40,000 in Hurricane Ike disaster benefits.             Services Administration (GSA) OIG; and the Department
                                                                      of Veterans Affairs OIG.
Louisiana Woman Sentenced for Her Role in a
Conspiracy to Commit Wire Fraud                                       Missouri Men Plead Guilty to Criminal Conspiracy
On February 9, 2012, the owner of a Louisiana financial               In February 2012, two Missouri men were charged
company was sentenced to 18 months in prison, three                   with—and pled guilty to—one count of criminal
years supervised release, and ordered to pay restitution of           conspiracy. The investigation revealed a government
$126,300, to be paid jointly and severally with her                   contracting fraud scheme and the illegal payment of
husband. The owner had previously pled guilty to one                  gratuities to a federal official. The first subject was the
count of conspiracy to commit wire fraud. The charges                 owner of a contracting firm. The second subject was a
involve an SBA loan of $126,300 that another couple                   silent partner in the contracting firm and owner of a
received in order to rebuild or repair their residence,               construction company. Both admitted to setting up a
following damage by Hurricane Ike. The borrowers gave                 “figurehead” service-disabled veteran as the purported
power of attorney to the woman to negotiate and finalize              president and operator of the contracting firm in order to
their SBA loan. The investigation revealed that the                   obtain federal contracts. From 2007 until 2010, the
woman and her husband, whose construction company                     contracting firm misrepresented itself as a qualified
was responsible for completing the repairs, drained the               Service-Disabled, Veteran-Owned, Small Business
borrowers’ bank account without finishing the work on                 (SDVOSB) and obtained approximately $3.4 million in
the home. A review of invoices, cancelled checks, and                 contracts from the Department of Veterans Affairs (VA).
paid receipts submitted to the SBA in support of loan                 The VA contracts were then funneled to the second
disbursements indicated that the items listed on the                  man’s construction company to perform the work. In
invoices had never been purchased and that the cancelled              addition, the contracting firm owner paid gratuities to a
checks were fraudulent.                                               former engineer for the VA, who directed set-aside and
                                                                      sole source contracts to the contracting firm. The owner
                                                                      of the construction company agreed to forfeit $1,557,439
Government Contracting & Business
                                                                      and a 2011 Jaguar as part of his plea agreement. This is a
Development                                                           joint investigation with the Government Services
                                                                      Administration OIG and the VA OIG.
Former U.S. Army Corps of Engineers Program
Manager Pleads Guilty to Bribery                                      Florida Men Convicted of Conspiracy and Wire Fraud
On February 13, 2012, in U.S. District Court for the                  Following Jury Trial
District of Columbia, a former program manager with the               On February 28, 2012, two Florida men were convicted
U.S. Army Corps of Engineers pled guilty to one count                 on one count of conspiracy and five counts of wire fraud
of bribery of a public official and one count of                      following a jury trial in US District Court. The jury also
conspiracy to commit money laundering. The subject                    determined that the $9,401,290 obtained as proceeds of
also agreed to the forfeiture of $1,150,000 in US                     their fraud should be forfeited to the United States. The
currency, as well as forfeiture of other previously seized            investigation revealed that the men devised a scheme
monies and goods. In a separate but related hearing on                whereby they created a company for the purpose of
the same date, the president of a technology firm pled                obtaining a $100 million small business set-aside
guilty to one count of bribery of a public official. He               language instruction contract with the Department of
agreed to the forfeiture of $246,000 in US currency and               Defense (DoD). The two used a nominee owner to create
the forfeiture of real property located in Maryland. The              the appearance that this company was not affiliated with
pleas related to a scheme that allegedly involved more                another business they controlled. Their other business
than $20 million in bribes and kickback payments and                  had been the incumbent contractor on the previous DoD



Update on the Activities of the SBA Office of Inspector General   2                                         February 2012
language instruction contract. The men submitted false
and misleading information concerning the relationship                    Peggy E. Gustafson, Inspector General
between the two companies after the affiliation was
challenged in the course of a size protest submitted to the           If you are aware of suspected waste, fraud, or abuse
SBA Office of Government Contracting. This is a joint                 in any SBA program, please report it online at
investigation with the DCIS.                                          http://www.sba.gov/office-of-inspector-
                                                                      general/2662
Agency Management
                                                                      Or call the OIG Hotline toll-free, at (800) 767-0385
SBA’s Lender Loan Reporting Process has Systemic
Reporting Issues and Data Control Weaknesses                          The OIG has established an e-mail address,
On February 23, 2012, the OIG issued a report that                    oig@sba.gov that we encourage the public to use to
identified systemic issues found during an audit of the               communicate with our office. We welcome your
SBA’s lender loan reporting process. The audit                        comments concerning this update or other OIG
objectives were to determine the adequacy of SBA’s                    publications. To obtain copies of these documents
controls and oversight over the development, security,                please contact:
and operation of certain information technology systems
and processes performed by Colson Services Corporation                                    SBA OIG
(Colson). Colson performed certain functions for SBA                            409 Third Street SW, 7th Floor
7(a) and the 504 loan programs, including processing                               Washington, DC 20416
certain automated transactions and developing new                                   E-mail: oig@sba.gov
information technology systems.                                               Telephone number (202) 205-6586
                                                                                FAX number (202) 205-7382
The OIG found that the SBA did not 1) adequately
address systemic data control weaknesses; 2) provide                  Many OIG reports can be found on the OIG’s
adequate oversight of the First Mortgage Loan Pooling                 website
System development; 3) ensure that Colson’s operation                 http://www.sba.gov/office-of-inspector-general
of SBA systems met federal security requirements; and
4) adequately enforce collection of secondary market late
penalty fees. These data control weaknesses resulted in
an overstatement of unpaid loan balances. Further, since
Colson and SBA systems perform different error
checking routines, error correction processes are
untimely and labor intensive. This resulted in a 63.5
percent increase in loan error volume from April 2006 to
March 2011. Moreover, some SBA systems were also
operated without adequate assurance that they met SBA
quality standards and federal security requirements.

The OIG made 11 recommendations, the most significant
being to: 1) correct loan balances contributing to the
subsidy overstatement; 2) collect outstanding late penalty
fees; 3) ensure that system development projects adhere
to SBA quality standards for systems development
projects; and 4) ensure that systems are authorized to
operate prior to being put into production.




Update on the Activities of the SBA Office of Inspector General   3                                   February 2012
